Rene L. Valladares
Federal Public Defender
District of Nevada

Lori C. Teicher
First Assistant
411 E. Bonneville Ave.
Suite #250
Las Vegas, NV 89101
Tel: 702-388-6577

Jonathan M. Kirshbaum
Chief, Non-Capital Habeas Unit

August 20, 2020
Mr. Scott S. Harris, Clerk of the Court
United States Supreme Court
1 First Street,
N.E. Washington,
D.C. 20543
Re:

William Hutchings, Warden, et al. v. Ronald Ross, 1 Case No. 20-86

Dear Mr. Harris:
I represent Ronald Ross and am a member of the Bar of this Court. Pursuant
to Rule 30.4, I am writing on Mr. Ross’s behalf to request a 43-day extension until
October 9, 2020, to file a Brief in Opposition in his case. Petitioners’ attorneys do not
oppose this request.
Petitioners filed their petition for writ of certiorari on July 23, 2020, in line
with this Court’s Administrative Order, which extended the time for filing petitions
due to the novel coronavirus. Mr. Ross intends to file a brief in opposition, as
permitted by Rule 15. Based on the day the petition was docketed, his brief is due
August 27, 2020. See Rule 15.3.
I request additional time to prepare Mr. Ross’s brief in opposition. I have been
predominantly working remotely since March 16, 2020, and my ability to timely file
Mr. Ross’s brief has been limited by challenges created by the coronavirus. This
includes technological challenges as well as childcare concerns. In addition to my
This is the caption as it currently appears on the docket. However, Respondent
submits the caption should be the one on the petition, Daniels, et al. v. Ross. Mr. Ross
is currently being housed at a private prison in Arizona through a contract between
the Department of Corrections and the private prison to house some Nevada inmates.
The Nevada official who has custody over him is the Department of Corrections
Director, Charles Daniels. William Hutchings is the warden of the women’s prison.

1

case-related responsibilities, I am the Chief of the Non-Capital Habeas Unit. These
administrative and managerial duties have taken up a significant portion of my time
due to the challenges inherent in working remotely as well as issues connected to
the pandemic. This has included most recently a closure of the office as well as power
outages affecting the office’s ability to connect to the network.
My responsibilities in other non-capital cases have also played a role in
seeking this extension. Since the time the petition in this case was filed, I have filed
an Opening Brief in the Nevada Supreme Court, 2 I have filed a petition for rehearing
in Nevada Supreme Court, 3 I have filed a Reply in federal district court, 4 I have filed
a response to a motion to dismiss a petition filed in state district court, 5 and I have
overseen the drafting and filing of a motion for a certificate of appealability and a
Reply in federal district court. 6 I have also had to spend much of my time over the
past two weeks working on two amended petitions due in the federal district court,
including one that has a deadline under 28 U.S.C. § 2244(d) in early September. 7
For these reasons, I respectfully ask for a 43-day extension to October 9, 2020,
to file Mr. Ross’s Brief in Opposition.
I served a copy of this letter on petitioners’ attorneys by e-mailing it to all of
the attorneys on August 20, 2020. In addition, a copy of the letter was mailed to
counsel of record, Heidi Perry Stern, Office of the Nevada Attorney General, 555
E.Washington Ave., Suite 3900, Las Vegas, NV 89101.
Sincerely,
Jonathan M. Kirshbaum
Chief, Non-Capital Habeas Unit
c:

Atty. Heidi P. Stern (by email and U.S. mail)
Atty. Jeffrey M. Conner (by email)

Heusner v. State, Nevada Supreme Court Case No. 80871 (filed July 28, 2020).
Adkisson v. State, Nevada Supreme Court Case No. 77933 (filed August 3, 2020).
4 Franklin v. Filson, 3:18-cv-00150-MMD-CLB (filed August 3, 2020).
5 Hiller v. State, 8JDC case No. A-20-815512-W (filed July 27, 2020).
6 Dominguez v. Williams, Ninth Circuit No. 20-15867 (filed August 10, 2020); Nichols
v. Baca, 3:13-cv-00671-MMD-WGC (filed August 3, 2020).
7 Campbell v. Russell, 3:19-cv-00576-MMD-WGC (due August 21, 2020); Garner v.
Baca, 3:18-cv-00525-MMD-WGC (due September 8, 2020).
2
3

